<html>
<title> - WATER RESOURCES DEVELOPMENT ACT: GROWING THE ECONOMY AND PROTECTING PUBLIC SAFETY</title>
<body><pre>[Senate Hearing 112-977]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-977

  WATER RESOURCES DEVELOPMENT ACT: GROWING THE ECONOMY AND PROTECTING 
                             PUBLIC SAFETY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










         Available via the World Wide Web: http://www.fdsys.gov
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-113 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
            
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 20, 2012
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    24
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    82
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    85
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    87
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................    91
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama, 
  prepared statement.............................................    93

                               WITNESSES

Herrmann, Andrew, P.E., President, American Society of Civil 
  Engineers......................................................    25
    Prepared statement...........................................    28
Bridges, Jerry A., Chairman of the Board, American Association of 
  Port Authorities, and Executive Director, Virginia Port 
  Authority......................................................    35
    Prepared statement...........................................    37
Calhoun, Rick, President, Cargo Carriers, Cargill, Incorporated..    41
    Prepared statement...........................................    43
Soth, Jeffrey, Assistant Director, Legislative and Political 
  Department, International Union of Operating Engineers.........    51
    Prepared statement...........................................    53
Kavinoky, Janet, Executive Director, Transportation and 
  Infrastructure, and Vice President, Americans for 
  Transportation Mobility Coalition, U.S. Chamber of Commerce....    60
    Prepared statement...........................................    62

                          ADDITIONAL MATERIAL

Letter to Senators Boxer and Inhofe from the American Iron and 
  Steel Institute, September 20, 2012............................   101

 
  WATER RESOURCES DEVELOPMENT ACT: GROWING THE ECONOMY AND PROTECTING 
                             PUBLIC SAFETY

                              ----------                              


                      THURSDAY, SEPTEMBER 20, 2012

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the Committee) presiding.
    Present: Senators Boxer, Cardin, Whitehouse, Merkley, 
Vitter, and Boozman.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you very much to our witnesses.
    In today's hearing we will look at how the Water Resources 
Development Act, known as WRDA, supports critical 
infrastructure nationwide and promotes economic growth and 
protects public safety.
    WRDA authorizes the projects and programs of the U.S. Army 
Corps of Engineers, provides many benefits to American families 
and businesses, including maintaining navigation routes for 
commerce and reducing the risks of flooding.
    Later this year I hope to move forward with a Water 
Resources Development Act, with a WRDA bill. I have already 
been working closely with Senator Inhofe and look forward to 
working with my colleagues on both sides of the aisle to 
advance this bill.
    As we will hear from our witnesses today, water resources 
legislation can boost the economy, create jobs, and help 
protect lives and property in communities across our great 
nation.
    U.S. ports and waterways, many of which are maintained by 
the Corps, moved 2.3 billion tons of goods in fiscal year 2011, 
and Corps flood risk management projects are estimated to have 
prevented $28 billion in damages, so when we look at this WRDA 
bill we are really looking at investments that save multiple 
dollars.
    The Water Resources Development Act and the projects, 
policies, and programs it authorizes are essential components 
of creating jobs and keeping our economy growing.
    In my home State of California, we are facing some of the 
nation's most critical water resource challenges. Many 
communities rely on the projects and programs authorized by 
WRDA. Our ports are some of the busiest in the world. Continued 
maintenance of port facilities is critical for the commerce and 
the jobs that rely on these economic hubs.
    California also faces significant flood risk. There are a 
number of critical flood protection projects across our State 
that are necessary to protect life and property. For example, 
the levees around the Natomas Basin in Sacramento require 
significant improvements to reduce flood risk for the tens of 
thousands of Californians they protect. According to the Corps, 
these levees also protect over $7 billion in property and 
critical Federal, State, and local infrastructure, and the 
project to rebuild the Natomas levees can move forward as soon 
as we pass water resources legislation.
    I would like to enter letters to the record from the 
Sacramento Area Flood Control Agency and Representative Doris 
Matsui supporting efforts to pass a WRDA bill and to authorize 
the Natomas levee improvements. Without objection, I will do 
that.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. Like Natomas, there are many more lifesaving 
projects around the country that are ready to be built 
following the passage of the WRDA bill. That is why I believe 
we must move quickly.
    Working together with Senator Inhofe and other members of 
this Committee, I am hopeful we can repeat our recent success 
on MAP-21, and we know that that transportation bill was not 
easy, but we got it done. We got it done for the people; we got 
it done for the economy. We crossed party lines to get it done. 
There is no reason we can't get a WRDA bill done. We have 
challenges, but we will figure out how to work those out.
    So I am very grateful to my colleagues on both sides of the 
aisle for their interest in this issue, even though there 
aren't too many people here. They are working on how to resolve 
issues on the floor right now. But I know that this hearing is 
important, and if we can lay the groundwork I am hoping we can 
meet during the lame duck and get a bill to the floor.
    So at this point, since I don't see any Republicans here, 
we will turn to Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, first let me thank you for 
holding this hearing and underscore the importance of the WRDA 
reauthorization. There are not a lot of Members here because I 
think I have five of my committees that are meeting at the same 
time, so this is the day that we believe we might be recessing 
until after the election, so there are a lot of things going 
on.
    I am going to ask consent that my entire statement be made 
part of the record.
    Senator Boxer. Without objection.
    Senator Cardin. And I want to compliment the Chair. They 
said we couldn't get MAP-21 done. We got MAP-21 done, and that 
was the leadership of Senator Boxer and Senator Inhofe 
recognizing the importance of surface transportation 
reauthorization to our national economy, and we got the job 
done. It was this Committee that got the job done. When they 
said it couldn't get past the House, we got it past the House 
because of the persistence of this Committee, the transparency 
and process that was used by this Committee.
    Madam Chair, I know you are going to make the same 
commitment on WRDA, to do that in an open process. I know 
Senator Inhofe. I know that he is sincere in trying to get this 
reauthorization done, and I think it gives great promise to the 
people of this country.
    You are exactly right. It will be bipartisan because we 
understand this is economic growth and jobs for our country. It 
translates into jobs, and that is very, very clear.
    Keeping shipping channels open for commerce is critically 
important to our nation. One out of 11 containers that are 
transported internationally either originate or come to the 
United States ports, so keeping our channels in proper shape 
and maintenance is critically important.
    Let me just talk a moment about the Port of Baltimore. Last 
year 853,000 tons of general cargo, No. 1 in the nation on 
trucks, No. 1 in the nation on roll-on/roll-off cargo, No. 1 on 
gypsum, sugar, and iron ore. And I could give you a lot of 
other reasons why the Port of Baltimore is critically important 
to our national economy.
    But let me talk about what it means to the people of 
Maryland: 14,630 direct jobs in the Port of Baltimore. That is 
why the water reauthorization bill is important; 108,000 jobs 
related, directly related to the Port's activities; $3 billion 
to our economy; $304 million in State and local Federal 
revenues come in, tax revenues, as a result of the activities. 
And that is just the Port of Baltimore. Multiply that times the 
other ports around our nation.
    So this is a smart investment, but having the honor of the 
Chair of the Subcommittee on Water and Wildlife, let me also 
point out how important the WRDA bill is to restore and protect 
our coastal ecology.
    The work that is done here is critically important. I could 
tell you about the work on Ocean City on the beach 
renourishment. It has worked. It has worked. We have gone 
through major storms, and we have seen that as a result of the 
attention that was paid to our beaches we have protected the 
important investment on our shorelines from an economic 
perspective.
    Let me mention the Conowingo Dam as a challenge. The 
Conowingo Dam acts for reservoirs to protect a lot of 
pollutants from going into the Chesapeake Bay, Susquehanna 
River to the Bay. It is critically important that we do the 
maintenance work at the Conowingo Dam in order to prevent those 
pollutants from ending up in the Bay. We now know, as a result 
of major storms, that the current protections are inadequate. 
Another reason why we need a WRDA reauthorization bill.
    Let me talk about Poplar Island. I will talk about this 
frequently. I want to thank Senator Sarbanes, my predecessor. 
It was his original authorization that allowed us to say we 
cannot only have a site for dredge material, but we can make 
into an environmental asset. That is exactly what has happened 
to Poplar Island. Yes, we put dredge material, but it is an 
1100-acre sanctuary for wildlife. The Maryland terrapin is 
alive and well. I am not necessarily referring to our football 
team at the University of Maryland, but I am referring to the 
terrapin, itself. We are finding the habitat for young 
terrapins so we can preserve that species for future 
generations.
    Madam Chairwoman, I want to ask consent that the statement 
from the National Wildlife Federation be made part of our 
record. They have worked very closely with us in protecting our 
coastal ways. I would ask consent that that be included in the 
record.
    Senator Boxer. Without objection.
    [The referenced information follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Cardin. So I just really want to thank the Chair 
for holding this hearing. I think the reauthorization of WRDA--
it has been 5 years, it is critically important we get this 
done. I think the timing is now to start the process. We 
understand the realities of the calendar, but I applaud you for 
this, and I look forward to being part of the process where we 
complete a reauthorization of WRDA.
    [The prepared statement of Senator Cardin follows:]
                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland
    Madam Chairman, thank you for holding this hearing today on another 
excellent jobs bill that our Committee will be taking up in the near 
future. It was my great pleasure as a member of this Committee to work 
in a cooperative, bipartisan manner to pass a comprehensive 
transportation bill earlier this year. The high quality jobs created by 
that bill are more important today than ever, and I am proud that this 
body was able to put partisan differences aside and work together for 
the good of the American people. It is the way that our legislative 
process is meant to work.
    I see the same bipartisan spirit and potential economic benefits 
from Water Resource Development projects. Just like improving our 
transportation infrastructure,
     keeping shipping channels open,
     protecting and restoring coastal ecology, and
     repairing dams
have considerable impacts on both local economies and the national 
economy. These are the kinds of projects we are here to discuss today.
    The projects we will be working to reauthorize under WRDA are 
exactly the kinds of investments that will help put Americans back to 
work, all while improving our public infrastructure and protecting our 
environment.
                 benefits of wrda to maryland's economy
    The last time WRDA passed in front of this Committee was 2007. It 
received overwhelming bi-partisan support and jump started critical 
infrastructure projects across the country.
    Every year the Corps clears tons of eroded sediment from the 
Federal navigation channels that lead into and out of the Port of 
Baltimore. Keeping this port open and the channels dredged is essential 
not just for Maryland, but for the nation. In July of this year the 
Port of Baltimore handled a record 853,818 tons of general cargo. This 
cargo would not have reached the port if it were not for WRDA funded 
dredging efforts.
    Among the 360 U.S. ports, Baltimore is ranked No. 1 for handling:
     Trucks and
     Roll on/roll off cargo (i.e. automobiles, trucking trailers, and 
freight cars),
    and is the country's second largest automobile exporter,
     Imported forest products, and
     Gypsum, sugar, and iron ore.
    The Port of Baltimore is directly responsible for generating 14,630 
direct jobs and another 108,000 related jobs. Over $3 billion of 
personal wage and salary income is generated by the port, which results 
in $1 billion of purchases from local business and $304 million in tax 
revenues for the State, county, and municipality.
    Although a major economic engine for Maryland, the Port of 
Baltimore isn't the only beneficiary of WRDA projects; WRDA projects 
also have a tremendous impact on Maryland's coastal communities. 
Maryland puts the Bay's dredge material to good use on coastal habitat, 
beach, and island restoration projects.
    Along our Atlantic coast, powerful winter storms and tropical 
cyclones can cause considerable beach erosion--threatening the economic 
vitality of our premier Atlantic coast resort city, Ocean City. Since 
1990 the Corps has supported a very successful, effective Atlantic 
coast protection program that involves replenishing the natural beaches 
that border Ocean City. This is the type of important work that WRDA 
can facilitate.
                  impacts of wrda to national economy
    Although I could go on all morning naming WRDA projects that are 
helping Maryland communities, WRDA is not just about Maryland--these 
projects are critically important for all Americans. For example, 
according to the Research and Innovative Technology Administration, 
today 1 in every 11 shipping containers engaged in global trade is 
either bound for or originates from a U.S. port.
    However, the Corps of Engineers estimates that our top priority 
harbors--those that handle about 90 percent of the commercial traffic--
are only dredged to their authorized depths and widths about 35 percent 
of the time.
    This results in ships having to light-load, which increases the 
cost of shipping and in turn increases the cost of goods at the cash 
register. At a time when Americans are struggling, any change in the 
cost of goods makes a direct difference to people's bottom lines. 
Moreover, well maintained harbors will help decrease costs for American 
companies who are shipping goods abroad, thereby giving American 
producers an advantage in the global marketplace. It is therefore 
imperative that we ensure that the resources are in place to maintain 
the shipping infrastructure that our nation relies on.
                     environmental benefits of wrda
    As critical as WRDA is from a jobs standpoint, it is not merely a 
jobs bill. WRDA is also a major tool in our efforts to protect and 
restore our natural environment.
    In fact, WRDA 2007 established that WRDA projects ought to fulfill 
the dual goals of promoting sustainable economic development and 
protecting the environment. Environmental commitment--including 
ecosystem conservation and the use of non-structural alternatives--is 
built right into current law. A reauthorization of WRDA offers a unique 
opportunity to benefit ecosystems across the nation.
    In Maryland, WRDA is directly tied to some of our most critical 
environmental efforts. For example, we now know that the sediment build 
up behind Conowingo Dam and two other reservoirs meant to keep harmful 
nutrients out of the Chesapeake Bay has reached critical levels. If 
this important infrastructure can no longer function, the Bay will 
surely suffer--the oxygen will be depleted, the water will cloud, the 
fish will die--all of the careful efforts of State, Federal, and local 
stakeholders to restore this magnificent Bay will be threatened. 
Officials are looking at options now for how to address this deeply 
disturbing circumstance. But no matter how this issue is ultimately 
addressed, the Corps is likely to be central to the solution.
    In Maryland, WRDA has a history of providing critical environmental 
restoration resources. The Corps' shoreline protection, sediment 
management, and oyster and habitat restoration programs are integral to 
Chesapeake Bay restoration efforts. And since oysters represent more 
than just a source of income for Maryland's watermen--they are natural 
biological filters continually cleaning up the Bay--WRDA's habitat 
restoration is leading to long-term solutions for water quality in the 
Bay.
    Similarly, WRDA has allowed us to go forward with an innovative 
project at Poplar Island. Poplar Island is the premier dual benefit 
dredge disposal site in the nation, but it is also a 1,100-acre 
sanctuary to hundreds of species of shore and water birds and 
Maryland's State reptile, the terrapin.
    Poplar Island is now home to the nation's largest terrapin research 
and propagation station, as well as home to the terrapin head start 
program which allows Maryland elementary schools to adopt and raise 
baby terrapins during the winter. None of this would have been made 
possible without WRDA funding.
    It has been 5 years since Congress passed the last WRDA 
legislation. It is essential to our nation's infrastructure, economy, 
and environment that we work together to craft a strong, effective 
bill. I look forward to hearing from today's witnesses and working with 
my colleagues on the latest reauthorization of WRDA.
    Thank you.

    Senator Boxer. Well, Senator Cardin, let me say you are a 
very important piece of this puzzle, because you know how to 
get things done. As a matter of fact, I am going to read just 
parts of Senator Inhofe's opening statement that he sent. He 
was unable to be here today, which I regret because he is my 
partner in this. He mentions your name, so I just thought you 
would be interested in this in a good way.
    He says: ``Thank you, Madam Chairman, for holding this 
hearing. I would like to thank our witnesses for testifying.''
    I am just reading parts of this. He says: ``As a fiscal 
conservative, I strongly support the overall goal of cutting 
Government spending; however, I firmly believe there are two 
areas worthy of spending taxpayer dollars. They are defense and 
infrastructure. It may not be as headline grabbing as some 
other areas of Government spending, but spending on 
infrastructure not only has job creation benefits, but it is 
essential for long-term economic growth.''
    Then he says: ``Senator Cardin, in the Subcommittee on 
Water and Wildlife, has held two hearings to make the case for 
investments in our drinking water and clean water 
infrastructure. We learned that improving water infrastructure 
yields significant economic benefits. The Department of 
Commerce estimates that $1 invested in water infrastructure 
generates more than $2 in economic output in other industries, 
and that each job created in the local water and sewer industry 
creates nearly four jobs in the national economy. The U.S. 
Conference of Mayors noted that each public dollar invested in 
water infrastructure increases private, long-term GDP output by 
more than $6. I want to thank them for their leadership, too, 
and for bringing this issue to the forefront.''
    And then he says: ``The Chairman and I have repeatedly 
signaled our strong desire to move the bipartisan WRDA bill. My 
staff and other members of the Big Four's staff have been 
working hard to negotiate a bill. We recognize there are 
pressing policy challenges that range from modernizing our 
ports and inland waterways to streamlining the Corps' study and 
planning process.''
    He concludes: ``In my home State of Oklahoma, we have our 
share of water resources challenges. These run the gamut from 
flood control to inland navigation to water supply. Oklahoma's 
and the nation's water resources policy issues and projects can 
no longer keep waiting for congressional action. I strongly 
support moving forward with the bipartisan WRDA bill, and I 
encourage my colleagues to do so,'' and so on.
    I want to put the full statement of Senator Inhofe in the 
record.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Madam Chairman, for holding this hearing. I also 
would like to thank our witnesses for testifying before us this 
morning.
    Today we are here to discuss a very important piece of 
legislation that this Committee is responsible for: the Water 
Resources Development Act, which authorizes projects and policy 
changes to address the nation's pressing water resources 
challenges.
    As a fiscal conservative, I strongly support the overall 
goal of cutting Government spending; however, I firmly believe 
that the two areas worthy of spending taxpayer dollars are 
defense and infrastructure. It may not be as headline grabbing 
as some other areas of Government spending, but spending on 
infrastructure not only has job creation benefits but is 
essential for long-term economic growth.
    This year many of this Committee's activities focused on 
this important issue. Most notably, we came together in a 
bipartisan way to pass a highway bill despite numerous 
challenges. For that, I want to thank the Chairman for her 
leadership and dedication. Not everyone thought we could get it 
done, but we proved them wrong.
    Senator Cardin's and Senator Sessions' Subcommittee on 
Water and Wildlife held two hearings to make the case for 
investments in our drinking water and clean water 
infrastructure. We learned that improving water infrastructure 
yields significant economic benefits. The Department of 
Commerce estimates that $1 invested in water infrastructure 
generates more than $2 in economic output in other industries 
and that each job created in the local water and sewer industry 
creates nearly four jobs in the national economy. The U.S. 
Conference of Mayors noted that each public dollar invested in 
water infrastructure increases private long-term GDP output by 
more than $6. I want to thank them as well for their leadership 
and for bringing this issue to the forefront.
    Now this Committee is turning its attention to the nation's 
water resources infrastructure. Like these other types of 
infrastructure, water resources infrastructure provides a good 
return on our investment in the form of economic benefits, job 
creation, and helping improve protection from flooding and 
other natural disasters. Our witnesses are here to further 
demonstrate the case for passing a WRDA bill.
    WRDA should be passed on a regular basis. Unfortunately, 
the last WRDA bill was enacted in November 2007--almost 5 years 
ago. At that time, we came together with the House to override 
a presidential veto because we recognized the significance of 
this legislation.
    During consideration of that last bill, Paul Weyrick 
described the need for preserving the authorization and 
appropriations process in a column for Townhall. He said, ``It 
is a discipline which is necessary if Congress is to display 
any resemblance of fiscal responsibility.'' Mr. Weyrick also 
correctly pointed out that it is an ``important discipline 
against uncontrolled earmarking,'' and it helps to limit 
authorizing on appropriations bills. This rationale holds true 
today, and in some ways it is even more important that we 
preserve this process.
    To that end, the Chairman and I have repeatedly signaled 
our strong desire to move a bipartisan WRDA bill. My staff and 
the other members of the Big 4 staff have been working hard to 
negotiate a WRDA bill. We recognize that there are pressing 
policy challenges that range from modernizing our ports and 
inland waterways to streamlining the Army Corps study and 
planning process.
    In addition, 17 projects with a Chief's Report have been 
referred to Congress by the Assistant Secretary of the Army 
(Civil Works), Ms. Jo-Ellen Darcy. The projects range from 
critical flood control projects that help protect the public to 
port construction projects that will prepare us for the Panama 
Canal expansion. They have gone through many years of study to 
determine if there is a Federal interest in addressing the 
water resources issue and whether or not the project is 
economically justified and feasible from an engineering 
standpoint. In addition, these projects have a local sponsor 
that shares the cost. Congress, starting with the EPW 
Committee, must make an individual investment decision as to 
whether each project should receive authorization. WRDA is the 
bill where Congress makes those decisions. Only then is the 
authorized project eligible to compete for funding through the 
appropriations process.
    In my home State of Oklahoma, we have our share of water 
resources challenges, too. These run the gamut from flood 
control to inland navigation to water supply. Oklahoma's and 
the nation's water resources policy issues and projects can no 
longer keep waiting for congressional action. I strongly 
support moving forward with a bipartisan WRDA bill, and I 
encourage my colleagues to do so as well.
    I look forward to hearing the witnesses' testimony.

    Senator Boxer. So this is really important, because it is 
sort of a similar type of partnership that we had, and some of 
you were part of that partnership on the highway bill. No one 
thought it could be done, so we believe it can be done. Working 
with not only Senator Inhofe but Senator Baucus and Vitter and 
Cardin and Sessions and all the members of this Committee, you 
know, I am very, very hopeful.
    To that end, we have assembled a really good and important 
panel this morning, and I am very hopeful that we will get 
encouragement from you to press forward. We will see what you 
say.
    So why don't we start with Andrew Herrmann, President of 
American Society of Civil Engineers.
    Mr. Herrmann.

STATEMENT OF ANDREW HERRMANN, P.E., PRESIDENT, AMERICAN SOCIETY 
                       OF CIVIL ENGINEERS

    Mr. Herrmann. Madam Chairman and members of the Committee, 
my name is Andrew Herrmann. I am President of the American 
Society of Civil Engineers.
    It is an honor for me to appear before this Committee to 
discuss the importance of a Water Resources Development Act to 
our nation's overall economic health, global competitiveness, 
and public safety.
    Last week ASCE released our latest Failure to Act economic 
study on the nation's ports. Our marine and inland waterways 
ports are critical links that make international commerce 
possible; however, our report found that continued under-
investing in port infrastructure could threaten more than 1 
million U.S. jobs between now and 2020. The report also found 
that investment needs for the nation's ports total $30 billion, 
while planned expenditures are only about $14 billion. That 
leaves a total investment gap of nearly $16 billion.
    If we don't invest more, transporting goods will become 
costlier, prices will rise, and the United States will become 
less competitive in the global market. To remain competitive, 
U.S. ports will require investment in the coming decades beyond 
the $14 billion expected. By closing the investment deficit 
between now and 2020, the U.S. can eliminate this drag on 
economic growth. Therefore, a comprehensive WRDA bill is 
critical at this juncture.
    Seven years after Hurricane Katrina, there is still no 
national levee safety program. While FEMA and the U.S. Army 
Corps of Engineers have made great strides in creating an 
inventory of the location of the nation's levees, when 
examined, the conditions of many of these levees are worse than 
originally anticipated. Congress needs to enact a new levee 
safety program which should be modeled on the successful 
national dam safety program and should require the Federal and 
State governments to conduct mandatory safety inspections for 
all levees.
    Flooding from Hurricane Katrina and more recently Hurricane 
Isaac demonstrated the need for consistent, up to date 
standards for levees based on reliable engineering data on 
their location, function, and condition. As demonstrated in New 
Orleans earlier this month, efforts to build a suitable levee 
system have paid off with better protection for those residents 
behind the levee; however, the levee system will require 
continued maintenance in order to provide state of the art 
protection for years to come.
    Next, WRDA should include Senate bill 3362, the Dam Safety 
Act of 2012. This bipartisan bill would reauthorize a national 
dam safety program through 2016 and provide grants to improve 
State dam safety programs through training, technical 
assistance, inspections, and research.
    State governments are responsible for ensuring the safety 
of most dams, but many State programs are under-funded and 
under-staffed. The Dam Safety Act would provide $13.9 million 
annually for State dam safety programs to continue to provide 
vital services. Last night the House passed the FEMA 
reauthorization, which included $10.9 million annually for the 
dam safety program.
    Unfortunately, flooding still remains one of the most 
prevalent natural disasters in the United States. Development 
in flood prone areas has increased, and inhabitants are 
subjected to periodic flooding and devastation. Communities 
need the protection of an efficient flood plain management 
program implemented before a flood occurs. By recognizing the 
likelihood of future flooding and the beneficial aspects of the 
natural floodplain, communities can become disaster resistant.
    The U.S. Army Corps of Engineers has been combating floods 
for decades and has proven a vital partner for national 
floodplain management. The Flood Control Act of 1960 created 
the floodplain management services program, allowing for the 
Corps to use its technical expertise in floodplain management 
to help both Federal and non-Federal entities deal with floods 
and floodplain related matters.
    This program provides assistance and guidance in the form 
of special studies on all aspects of floodplain management 
planning, including the possible impacts of all floodplain land 
use changes on the physical, socio-economic, and environmental 
conditions of the floodplain. Study scopes range from helping a 
community identify present or future floodplain areas and 
related problems to a broad assessment of the various remedial 
measures that can be effectively used.
    But the Corps has been faced with reduced appropriations 
over the past several years, making the mission more 
complicated. The Office of Management and Budget reported last 
week that the civil works program faces a reduction of $505 
million in fiscal year 2013 under the sequestration authority 
of the Budget Control Act of 2011. If Congress does not act, 
the Corps would lose $34 million of the $415 million in fiscal 
year 2013 budget authority for flood control and coastal 
emergencies.
    Continuing to under-invest in the Corps civil works program 
will only put our national floodplain programs and Federal 
water resources infrastructure at risk. ASCE urges all levels 
of government to partner and adopt proactive floodplain 
policies and to inform residents in floodplains of the hazards 
associated with development in high risk flood prone areas.
    In conclusion, deferring water resources projects creates 
costs that reverberate throughout our economy. ASCE looks 
forward to working with the Senate Environment and Public Works 
Committee as you develop a WRDA bill.
    Thank you, Senator Boxer. This concludes my testimony.
    [The prepared statement of Mr. Herrmann follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Senator Boxer. Thank you so much.
    Jerry Bridges, Chairman of the Board, American Association 
of Port Authorities, and Executive Director, Virginia Port 
Authority.
    Welcome, sir.

STATEMENT OF JERRY A. BRIDGES, CHAIRMAN OF THE BOARD, AMERICAN 
   ASSOCIATION OF PORT AUTHORITIES, AND EXECUTIVE DIRECTOR, 
                    VIRGINIA PORT AUTHORITY

    Mr. Bridges. Good morning, Senator, Ranking Member Inhofe, 
and Members. I want to thank you for the opportunity to provide 
testimony to the Committee on Environment and Public Works on 
the need for a Water Resources Development Act.
    I am Jerry Bridges, Executive Director of the Virginia Port 
Authority. I appear today as Chairman of the Board of the 
American Association of Port Authorities, which represents the 
interests of the leading U.S. public port authorities, as well 
as public port authorities throughout the western hemisphere, 
from Canada to Argentina, including the Caribbean. My testimony 
today, however, is on behalf of the AAPA's U.S. public port 
members.
    Since the water bills are critically important to the 
health of the port industry, we appreciate the Committee's 
leadership in addressing the need for the Water Resources 
Development Act. I will focus my comments today on the need to 
authorize new projects to keep the nation competitive in a 
world economy and promote jobs and economic activity here at 
home.
    I will also address the need to put streamlining and 
efficiency measures in place that will allow projects to move 
along more quickly. We can no longer take decades to respond to 
economic opportunities that occur daily. Seaports and their 
industry partners provide over 13 million high paying, family 
wage jobs and contribute more than a quarter of the nation's 
GDP.
    The historic partnership between seaports and the Federal 
Government finds its root in the Commerce Clause of the U.S. 
Constitution and is the oldest and most Federal of all the 
Corps of Engineers' mission. That partnership has built much of 
the waterside infrastructure we maintain and use today.
    The U.S. ports and its partners will spend $46 billion over 
the next 5 years to improve their infrastructure. However, 
increasingly we find that the Federal partner is unable to 
uphold its part of the bargain in financing new infrastructure 
and channel improvement projects. As a result, the growth in 
jobs and income is not being realized at the same extent as in 
the past.
    We are calling upon the Committee to consider a series of 
streamlining and efficiency provisions that will permit more 
flexibility and new options for financing and maintaining 
Federal channel projects.
    Having been a port director of major ports on both the east 
and the west coast, I can unequivocally assure you dredging 
impacts the bottom line of every port in the country on the 
docks, at the terminal, and in the yards.
    It also directly impacts the transportation savings we are 
able to create for all of those who depend on ports and Federal 
channels that handle over 90 percent of our world trade. 
Dredging directly equates to jobs, incomes, and international 
competitiveness, and not just for coastal States. On average, 
every State depends on as many as 15 different seaports for its 
overseas trade.
    This week the American Society of Civil Engineers released 
its report entitled, Failure to Act: The Economic Impact of 
Current Investment Trends in Airports, Inland Waterways, and 
Marine Port Infrastructure. This report concluded that aging 
infrastructure for marine ports, inland waterways, and airports 
threatens more than 1 million U.S. jobs. We cannot let that 
forecast become a reality.
    Earlier I mentioned the critical role this Committee plays 
in authorizing projects, modification to existing projects, and 
providing Federal authority and policy direction. Our friends 
in the dredging industry like to say it all begins with 
dredging, when in reality it all begins with you. Projects 
cannot start, construction will be modified until you have done 
your due diligence in identifying the best sets of provisions 
needed to move ahead projects under consideration. We need this 
process to be regular and reliable as we attempt to keep up in 
a competing world market.
    We believe it is now time to revisit the 26 year old harbor 
maintenance tax trust fund authorization in 1986 WRDA that is 
the sole source of reimbursement for Federal maintenance 
dredging funds. Port and harbor users are paying for 100 
percent of maintenance dredging and getting half in return. The 
tax revenue collected currently is about $1.5 billion annually, 
and fully applied should be adequate to maintain Federal 
channels once they are restored to their constructed 
dimensions.
    Finally, we are commending Committee leadership for 
recognizing the nexus between water resources development and 
economic prosperity. Limited spending under-investment in the 
nation's seaport water infrastructure limits job creation, 
resulting in higher consumer prices and penalizes exporters 
with higher transportation costs. We urge you to develop and 
pass the Water Resources Development Act at the earliest 
possible time.
    Thank you very much.
    [The prepared statement of Mr. Bridges follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Thank you so much for that.
    Rick Calhoun, President, Cargo Carriers, Cargill, 
Incorporated.
    Welcome, Mr. Calhoun.

             STATEMENT OF RICK CALHOUN, PRESIDENT, 
             CARGO CARRIERS, CARGILL, INCORPORATED

    Mr. Calhoun. Thank you, Chairwoman Boxer and members of the 
Committee. Thanks for the opportunity to testify about the 
state of our waterways and the economic job creation 
opportunities associated with investment in water resources.
    My name is Rick Calhoun. I am the President of Cargill 
Carriers, a business of Cargill, Incorporated. I am also the 
immediate past Chairman of the Waterways Council, the public 
policy organization advocating for water and well maintained 
national system of ports and inland waterways.
    Cargill is an international producer and marketer of food, 
agricultural, financial, and industrial products and services. 
Our company employs 140,000 people in 65 countries.
    Today I urge the Committee to act on a Water Resources 
Development Act to improve the nation's waterways system and 
increase infrastructure investment. Our nation's waterways have 
remained a reliable transportation mode because of the vision 
of past Congresses and hard work of the U.S. Army Corps of 
Engineers, but in the future we believe that without immediate 
action to alter delivery schedule of projects needed to enhance 
our infrastructure, the system's reliability could be 
challenged.
    Waterways are critical to keeping our domestic supply chain 
competitive. Corps of Engineers' statistics note a $14 per ton 
cost savings for shipping on inland waterways versus other 
modes. Translated, a farmer, shipper, and consumer cost 
savings. Without water-borne cargo, our domestic products would 
congest the nation's highway and rail lines, increasing 
shipping and consumer costs for all Americans.
    For 200 years America's river systems attracted private 
capital investment because it has been consistently dependable 
transportation mode. This natural resource increases U.S. 
competitiveness, supports global markets for a range of 
commodities, and creates American jobs. One can always count on 
the river system to work; however, the system's reliability is 
fast becoming a questionable assumption.
    Despite the efforts of industry to modernize their 
operations for 21st century economy, on the rivers we rely on 
1930s technology. Of the 238 Corps locks, 56 percent are over 
50 years old--well beyond their design life, and 34 locks are 
over 80 years old. If not addressed, this infrastructure hinges 
on the brink of collapse. Moreover, these projects are not 
built in a day. They take years, even decades, to construct.
    The Ohio River's Olmstead lock and dam project underscores 
the system's deficiencies. Authorized by Congress in 1988 at 
$775 million, the project was to be completed within 12 years. 
Almost 25 years later, the project is nowhere near completion 
and has ballooned to a cost of over $3 billion.
    While Olmstead is draining the inland waterway trust fund, 
other navigation projects are on hold and crumbling before our 
eyes. Without a change, we won't see critical construction and 
major rehabilitation projects completed in our lifetime. With 
completion dates for some as late as 2090, the navigation 
project financing business model is broken and needs repair by 
Congress.
    In 2010 industry and the Corps developed recommendations 
aimed at the waterways system viability. Called the capital 
development plan, it recommends prioritizing projects system-
wide, improving the Corps' project management processes to 
deliver project on time and on budget, and recommending an 
affordable funding mechanism with increased investment from 
both industry and the U.S. Government. The plan recommended 
increase in annual spending on lock and dam projects from $170 
million to $380 million, estimating it would be enough to 
complete 25 major projects over the next 20 years compared to 
just 2 under the current funding scheme and Olmstead's cost 
escalation.
    The capital development plan was converted into legislation 
by Congressman Ed Whitfield and Jerry Costello, H.R. 4342. The 
Way Forward Act of 2012 now has 27 bipartisan House cosponsors 
and has been endorsed by more than 200 organizations.
    Industry is willing to invest and add more to the inland 
waterway trust fund and to protect our river investments. 
Cargill and our waterways partners are willing to accept a 
significant increase in the diesel user fee if we are to 
provide an efficient plan that will result in a reliable river, 
but we cannot and should not act alone. The United States must 
increase its investment as waterways infrastructure 
modernization occurs worldwide so that we can compete on a 
global stage to capture the promise of the Panama Canal Project 
scheduled for completion in 2014.
    The time for action is now. Without it, lock closures will 
choke economic recovery and hamper growth. Congress must 
support the Corps' work so we don't face the catastrophe of 
irreparable damage to the U.S. economic which could cost the 
U.S. Government far more in disaster relief and repair.
    In summary, Cargill urges this Committee to bring forward a 
by WRDA bill immediately in order to change the path to failure 
that we are currently on today as a nation. Further, we support 
the efforts of several Senators to address the infrastructure 
challenges of our ports and inland waterways and we encourage 
this Committee to support those efforts as well.
    Thank you for the opportunity to share Cargill's views. I 
am happy to answer questions and respond to specific inquiries 
going forward.
    [The prepared statement of Mr. Calhoun follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Senator Boxer. Thank you very much, Mr. Calhoun.
    Jeffrey Soth, Assistant Director, Legislative and Political 
Department, International Union of Operating Engineers, welcome 
to you.

STATEMENT OF JEFFREY SOTH, ASSISTANT DIRECTOR, LEGISLATIVE AND 
    POLITICAL DEPARTMENT, INTERNATIONAL UNION OF OPERATING 
                           ENGINEERS

    Mr. Soth. Thank you, Chairman Boxer. It is an honor to join 
you today.
    My name is Jeffrey Soth. I am the Assistant Legislative and 
Political Director of the International Union of Operating 
Engineers. The Union represents approximately 400,000 men and 
women in the United States and Canada. Every day across the 
United States thousands of IUOE members are building the 
nation's locks and dams and dredging the nation's key 
navigation channels. That is why my testimony today relates to 
the direct employment and job opportunities connected with 
WRDA.
    The essence of my message today is this: a strategic, 
targeted investment in the nation's navigation network can have 
a dramatic direct employment effect on the hardest hit segment 
of the economy while simultaneously delivering medium and long 
range benefits to American competitiveness.
    I would like to touch quickly on work force development in 
the construction sector. With over 100 facilities and 1,000 
instructors, the International Union of Operating Engineers 
possesses extensive experience in work force capacity. Most 
importantly, this expertise is reflected in the skills and 
productivities of members of the IUOE.
    Apprenticeship is the industry accepted training model for 
craft workers in the industry. It is a system of on the job 
training combined with classroom instruction. For workers, the 
model delivers progressive wages over the term of training. 
Usually for operating engineers that is 3 or 4 years. It 
delivers a nationally recognized portable credential at the 
completion of the training, and delivers future training 
opportunities and higher earning potential to workers. These 
skills allow operating engineers and other craft workers in the 
industry to obtain some of the highest earnings in the private 
sector for production workers.
    Production and non-supervisor workers in the heavy and 
civil engineering subsector earn over $25 an hour. That 
compares to less than $20 an hour for production workers in all 
of the private sector.
    For employers, the apprenticeship model delivers important 
benefits, as well. First and foremost, it delivers skilled 
workers. Employers jointly manage these programs. They develop 
the curriculum, direct the resources, and ensure thereby that 
the training meets their needs. Apprenticeship delivers a 
pipeline of new entrants into their companies, and most 
importantly, through increased productivity and safety, 
apprenticeship reduces the bottom line for contractors.
    Let me turn quickly to the current labor market conditions 
in the construction sector. Senator, you have a couple of 
charts there that may be helpful for you as I go through this 
part of my testimony.
    Unemployment, as you can see on the first chart there, 
unemployment rate in construction has dropped to a nearly 4-
year low, a 46-month low. It is at 11.3 percent right now. 
Unemployment in the industry peaked at over 27 percent in 
February 2010. Construction has consistently endured the worst 
job picture of any industry during the Great Recession, and 
unfortunately, that is still true today. Construction employers 
added just 1,000 workers to their payrolls in August, and 
employment has changed little in the last 2 years. There are 
over 2 million fewer workers in the industry than there were at 
the start of the recession, as you can see in the second chart.
    In heavy and civil engineering construction, contractors 
added just 2,800 jobs in August. This sector has 16 percent 
fewer jobs than it did before the start of the recession.
    Let me be clear, Senator. The operating engineers sincerely 
appreciate your leadership and the leadership of the Committee 
to enact MAP-21. The legislation avoided an economic 
catastrophe and will add modestly to job growth in 
construction, but we strongly believe more needs to be done.
    As you have heard from Mr. Herrmann, the ASCE just produced 
an important economic analysis entitled, Failure to Act: The 
Current Trends in Investment in Ports and Inland Waterways. The 
report makes plain that a $16 billion funding gap exists. To 
put it simply, your leadership is necessary to fill this gap. 
By doing so, Congress can meet the short-term needs of the 
construction industry while laying the foundation for long-term 
vitality of the national economy.
    WRDA capital improvements can drive job growth in the 
anemic construction sector. It is clear from analyzing other 
types of infrastructure investment that roughly 30,000 job 
years are created for every $1 billion invested in 
infrastructure. But here is the key. Here is the important 
point: 10,000 of those jobs, about one-third of them, are 
created in the construction sector.
    To summarize, the construction sector has endured the worst 
unemployment of any industry in the nation during the Great 
Recession. Family sustaining jobs, American jobs at higher than 
average wages can be created through investments in the 
nation's waterways.
    The International Union of Operating Engineers believes 
that now is the time for targeted investments in the Water 
Resources Development Act. Such a move can change the course of 
the construction sector's economic recovery and lay the 
foundation for the country's future prosperity. We hope you 
agree.
    We appreciate the opportunity to comment, Senator. Thank 
you.
    [The prepared statement of Mr. Soth follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    Senator Boxer. I won't keep you guessing. I agree.
    And now it is my pleasure to introduce Janet Kavinoky, 
Executive Director, Transportation Infrastructure, and Vice 
President, Americans for Transportation Mobility Coalition, 
United States Chamber of Commerce.
    I want to just say publicly, Janet, how much I appreciated 
all your work during MAP-21. It was essential. You reached out 
to a lot of people in the House that only you could do. I 
really appreciate it.

STATEMENT OF JANET KAVINOKY, EXECUTIVE DIRECTOR, TRANSPORTATION 
     AND INFRASTRUCTURE, AND VICE PRESIDENT, AMERICANS FOR 
  TRANSPORTATION MOBILITY COALITION, U.S. CHAMBER OF COMMERCE

    Ms. Kavinoky. You are very welcome, Senator. It was a true 
partnership of a lot of people in this room. Many of us will be 
back to work with you on WRDA, so that is why we very much 
appreciate the opportunity to be here to testify about economic 
and job benefits of water resources infrastructure.
    We, of course, appreciate this Committee's long tradition 
of leadership and bipartisanship on infrastructure issues, and 
in particular, the efforts to guide MAP-21 to its successful 
conclusion.
    We often refer to transportation in terms of surface, air, 
and water modes. This Congress has tackled runways, roadways, 
and railways this year. Now it is time to finish the job and 
focus on water resources, and in particular, navigation.
    As we look at this issue, we find that transportation has a 
direct influence on the U.S. economy. Cargo and related 
activities in our ports, on our coastal inland waterways, the 
Great Lakes, and the St. Lawrence Seaway are integral to the 
global supply chain and sustain more than 13 million jobs. One-
third of the short tons moved in water-borne commerce is bound 
for foreign markets that represent 73 percent of the world's 
purchasing power, 87 percent of its economic growth, and 95 
percent of its consumers. The inland waterways system helps 
make American producers competitive by supporting low cost 
transportation commodities.
    Unreliability and outdated infrastructure increase the cost 
of transporting these commodities and threatens U.S. 
competitiveness.
    In addition, this Committee made stretching every Federal 
highway program dollar a priority in MAP-21, but our outdated 
and unreliable inland waterways infrastructure undermines that 
good work. For example, on the upper Mississippi River, 
transportation accounts for 75 to 80 percent of the aggregates 
cost in that region. The industrial lock in New Orleans, which 
allows all cargo bound for east coast and gulf ports to exit 
the Mississippi, is so small that only four barges can go 
through at once. All because Warren Paving brings eight-barge 
tows to Gulfport; those barges must first be broken in two, 
then an assist boat hired to push half the barges through the 
lock at a time, and then the eight barges are put back together 
before proceeding. It is a major expense, and that is only one 
location.
    As Mr. Calhoun noted, a high percentage of the locks on the 
Mississippi River are 50 years old or more. It is not uncommon 
for a tow to sit 2 or 3 days waiting to get through some of the 
locks, and such a delay imposes significant additional costs.
    Since you have already heard from AAPA, I will simply agree 
that our inland and coastal ports across the country face 
challenges posed by shifting trading patterns as a result of 
the expansion of the Panama Canal in competition from Canada 
and Mexico. Pressing needs include last mile investment, land 
site congestion management, capital dredging projects, and of 
course maintenance dredging of channel and harbors which could 
be addressed through full annual utilization of the harbor 
maintenance trust fund.
    The challenges facing the marine transportation system are 
well documented. The Chamber recommends legislative actions in 
four general areas: improving Federal coordination; 
establishing priorities to maintain, modernize, and expand the 
system; increasing investment, both public and private; and 
creating conditions for successful project delivery.
    The Chamber is among the 200 organizations that endorse the 
inland waterways capital development plan now in legislative 
form in the House. The plan presents a 20-year construction and 
rehabilitation schedule, recommends raising the inland 
waterways diesel fuel tax, and promotes modifying authorized 
depths and widths for harbors and channels as needed.
    A WRDA bill should create the conditions for successful 
Army Corps project delivery, including providing for adequate 
reliable funding, streamlining and putting deadlines on the 
feasibility study process, and allowing the Corps to enter into 
continuing contracts for critical projects when they are 
consistent with congressional and Administration priorities.
    And we agree with other stakeholders that it is critical 
and urgent to address the speed, cost, and oversight of the 
Olmstead Locks and Dam project in order to free up resources 
for other capital construction efforts along the inland 
waterways system.
    The total value of water-borne freight is estimated to 
increase by 43 percent domestically and 67 percent 
internationally by 2020. The U.S. marine transportation system 
must accommodate those increasing freight volumes, so this 
Committee can and should act with the similar bipartisan spirit 
that resulted in a unanimous Committee vote that set up MAP-21 
for success on the Senate floor, and in the same way the 
Chamber supported this Committee on MAP-21, we will continue to 
do so with the Water Resources Development Act.
    So thank you very much for your ongoing partnership with 
the Chamber on infrastructure, and I am happy to answer any 
questions you may have.
    [The prepared statement of Ms. Kavinoky follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Senator Boxer. Thank you all.
    We have been joined by Senator Whitehouse. If it is OK with 
him, I will ask a first round of questions for 5 minutes, and 
then I will give you 10 minutes to do an opening statement and 
round of questions. Is that fair?
    Senator Whitehouse. That is more than fair. Thank you, 
Chairman.
    Senator Boxer. Anything for you, sir.
    Mr. Soth, your testimony highlighted some of the jobs 
associated with water resources projects. I don't think people 
realize how many jobs are created and sustained. Could you go 
through that a little bit more? Spell it out, the types of 
jobs. And are they good paying jobs?
    Mr. Soth. The Bureau of Labor Statistics tells us that 
there are four occupations primarily associated with this kind 
of construction: laborers, operating engineers, carpenters, and 
truck drivers, Teamsters. Those four occupations dominate most 
of the work activity. We do the whole range of things in lock 
and dam construction consistent with operating engineers. We 
run cranes, backhoes, excavators, you name it.
    When it comes to dredging, there is a unique set of 
equipment there. We use hydraulic barges, hydraulic machinery 
that is doing the excavation, and have really complex 
technology GPS systems associated with them, but it is a little 
bit of a unique craft. I mentioned in 1927 actually the 
International Brotherhood of Steamshovel Operators and 
Dredgemen were merged into the International Union of Operating 
Engineers, so really dredging is in our middle name in some 
respects, too, and is an important part of our work.
    Senator Boxer. And just so people understand, am I correct 
when I say these jobs are private sector jobs?
    Mr. Soth. Absolutely, 88 percent of all business 
establishments in the heavy and civil engineering subsector of 
construction are private sector, and virtually all of our 
employers are private sector. The operating engineers are 
directly hired by some ports around the country, as well, but 
that is a relatively small number. Virtually all of our 
employers in the industry are private sector employers.
    Senator Boxer. I think it is very important, because there 
is a lot of dispute about, you know, is this private sector, 
public sector. Frankly, as far as I am concerned, whether it is 
a local port authority or private sector business person, my 
concern is getting the job done so we can move goods, so we can 
compete. But the fact is, you are saying the vast proportion of 
these jobs are private sector jobs. Are they well paying, good 
paying jobs?
    Mr. Soth. Yes. They certainly are. Our training in the 
industry allows us to command some of the highest private 
sector wages for production workers that are available out 
there. As I mentioned in my testimony, that average wage for 
production and non-supervisory worker is over $25 an hour, and 
in all of the private sector I believe it is $19.50 an hour 
currently. That is the most up to date data there is out there. 
So just based on the nationally available data, that is 
certainly true.
    But operating engineers, members of my union, tend to make, 
frankly, even more money than that $25, as well as the benefit 
packages when you are a member of the Operating Engineers 
Union. So those health and welfare benefits, those investments 
in our pension, those are critical to maintaining communities 
and maintaining the livelihood and welfare of our members.
    Senator Boxer. So these are jobs that you can support a 
family on, that you can get into the middle class on, and these 
are jobs that mostly come from the private sector, which is why 
my next question is for Janet Kavinoky, who really represents 
the voice here of business overall. We have different business 
voices, but you do represent the Chamber of Commerce.
    Now, we are facing tough decisions on where to invest our 
limited Federal dollars, and we hear many arguing for reduced 
spending on a variety of programs. Unfortunately, they include 
big cuts in Federal infrastructure. Why is it important to the 
economy to continue to invest in water resources infrastructure 
even in tight budget times, Ms. Kavinoky?
    Ms. Kavinoky. I think many of my fellow panelists have made 
the point that water resources infrastructure is really about 
supporting U.S. businesses and U.S. jobs. When one-third of the 
water-borne cargo is bound for the markets that contain 95 
percent of consumers, we know that there aren't a whole lot of 
alternatives for that cargo to get overseas.
    Senator Boxer. Right.
    Ms. Kavinoky. And so whether you are in grain industry, 
such as Cargill, you are in the energy industry, you are doing 
wood and wood products, you are moving aggregates that benefit 
transportation in other areas, you need that low cost 
transportation. Otherwise, other countries are going to start 
producing those things and selling to those markets where the 
growth is.
    So ultimately it really comes back to being, as we have 
said for years, the physical platform of the economy. If you 
don't have one that is reliable, that is predictable, that is 
safe, and that provides opportunities to support future growth, 
we won't be able to compete as a country on the basic food, 
fuel, the feedstocks of what we have in the rest of our 
manufacturing and services sector.
    Senator Boxer. So is it fair to say--because I don't want 
to misquote you--that the Chamber's position is this is an 
important investment, should be continued?
    Ms. Kavinoky. The Chamber of Commerce is very consistent in 
saying we need to increase Federal investment in 
infrastructure, and in the areas where the industries are 
supportive of user fees, such as, of course, you saw in the 
inland waterways capital development plan, we believe that 
those user fees can support deficit neutral increases in 
infrastructure investment.
    Senator Boxer. OK.
    We have been joined by Senator Vitter. Welcome, Senator. I 
just promised Senator Whitehouse that he would be able to do 5 
minutes of his opening statement and 5 minutes of questions, 
then we will turn to you for 5 minutes opening statement and 5 
minutes of questions.
    I just wanted to say the reason I asked labor and 
management to sit next to each other, I want to make the point 
here that we are united, business and labor, on this, just as 
we were on the highway bill, and I think the tone is set here 
at this hearing for action. You are both calling for action. 
You are both raising the alarm for action. I so hear you and I 
am very determined. If I had my way, I would have had this as a 
markup today, but we hopefully can do it in the lame duck.
    Senator Whitehouse, and then Senator Vitter, 10 minutes.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman. Thank you so much 
for hosting today's hearing on the Water Resources Development 
Act, known affectionately as WRDA around here.
    The nation's water infrastructure is indisputably 
crumbling, and a meaningful reauthorization of WRDA would play 
a very important role in both rebuilding that infrastructure 
and rebuilding our economy.
    While WRDA possibilities are more limited than they have 
been in the past, they remain key local and national 
opportunities for progress.
    At the local level, for me, Madam Chairman, authorization 
for Rhode Island's Point Judith Harbor of Refuge should be 
added to fully consider shoreline protection benefits in the 
ongoing cost-benefit analysis for repairing that breakwater. 
The Army Corps is presently conducting a major rehabilitation 
study for the breakwater forming the Point Judith Harbor of 
Refuge, evaluating the effectiveness of the breakwater in its 
current condition. Adding shoreline protection as a purpose in 
the project's authorization will ensure that the Corps can 
fully evaluate and incorporate those benefits in its analysis 
and design for that project.
    Another small local project is in Warwick Cove, where the 
navigation channel boundaries must be updated for the Warwick 
Harbor Management Plan to be approved.
    At the national level there are two issues I think we need 
to address. One is an increase in continuing authority program 
limits, cap limits, and a second is reauthorization of the 
national dam safety program.
    Cap limits first. Cap limits have not been adjusted for 
inflation or for construction cost increases. The limit for the 
section 205 flood control authority, for instance, hasn't been 
adjusted since 1999, and it remains at $7 million. According to 
a Congressional Research Service review of the Army Corps 
manual, a likely construction project under this authority that 
would cost $5 million for levees and floodwalls in 1999 would 
nowadays be estimated to cost almost $11 million. If you went 
to the Consumer Price Index as your inflation rate, that $7 
million project in 1999 would now amount to $10 million. So I 
propose adjusting the per project spending limit for the 
section 205 cap, and I encourage similar increase for all other 
cap authorities.
    On dams, Rhode Island has more than 700 dams. Many of them 
are very old. The famous Slater Mill Dam that ushered in the 
industrial revolution was built in 1793. Many of our dams are 
in poor condition: 179 are rated high risk or significant risk. 
We are the second-most densely populated State in the country, 
so this issue of dam failure warrants serious public safety 
attention.
    This was a real concern during the devastating 2010 floods. 
There were people sitting and watching at dams. Will they hold?
    Rhode Island's tale isn't unique. The nation's dams 
collectively received a grade of D from the American Society of 
Civil Engineers' 2009 Report Card for America's Infrastructure. 
They cited more than 4,000 deficient dams, which included more 
than 1,800 that would result in loss of life if they failed.
    The WRDA bill provides us an opportunity to reauthorize the 
national dam safety program. Thanks to Senator Akaka's 
leadership and to the bipartisan hard work of Senators Boozman 
and Crapo, important legislation to reauthorize this program, 
the Dam Safety Act of 2012, is ready to be incorporated into a 
WRDA bill. This bill would improve dam safety across the nation 
without increasing cost to the Government.
    The national dam safety program helps States check for 
deteriorating dam conditions and helps ensure that States have 
the technical assistance, training, and procedures they need to 
prevent dams from reaching a condition that puts communities in 
danger.
    Rhode Island really relies on its partnership with the FEMA 
dam safety program for funding, for dam hazard classifications, 
for inundation maps, and to develop emergency actions plans 
which are required for all high hazard and significant hazard 
dams. National dam safety program assistance funds were used by 
the Rhode Island EMA to complete emergency action plans for 
high hazard dams, to inspect high hazard and significant hazard 
dams, and make recommendations for their repairs or 
maintenance, to classify dams, and for aerial photography of 
dams.
    Per the dam safety regulations, high hazard dams are to be 
visually inspected every 2 years, and significant hazard dams 
every 5. That is 65 full inspections each year that we depend 
on to ensure communities throughout Rhode Island are protected 
from these deteriorating structures.
    Mr. Herrmann, we particularly appreciate the support from 
the American Society of Civil Engineers for this bill, as well 
as the support from the Association of State Dam Safety 
Officials.
    One final comment on a common theme in the witnesses' 
testimony that I think all of our States here, Louisiana, 
California, and Florida can agree with, and that is the 
importance of port infrastructure for jobs and local economies. 
We have seen this first-hand in the Ocean State. Our ports in 
Providence and Quonset Point have been bright spots throughout 
our prolonged recovery. Quonset Point is poised to surpass Los 
Angeles, believe it or not, Madam Chairman, to become the sixth 
largest point of entry for automobile imports into the U.S.
    With the help of a TIGER grant that Senator Reid and I 
fought very hard for, the Quonset Port has reinforced their 
pier and purchased a mobile port crane, significantly 
increasing the capacity to process cargo and positioning 
Quonset as a potential hub for the assembly of offshore wind 
turbines, which could mean up to 800 jobs at that port.
    Rhode Island's ports and ports throughout the country are 
critical to the flow of commerce and to providing jobs for hard 
working Americans. As we work toward a WRDA reauthorization, I 
agree with the witnesses that we should not lose focus on the 
importance of our ports.
    Since I mentioned Mr. Herrmann in my remarks, let me ask if 
he would be interested in speaking for a moment on the question 
of the dam safety program. Once again, I appreciate the support 
of the Society of Civil Engineers, and I think your calling out 
America's infrastructure with these grades has been important 
to sharpen America's focus on this issue, and the fact that we 
have a D for the dam infrastructure in this country when so 
much life and so much property exists in the wake of the 
catastrophe to ensue if dams let go was a very important 
signal.
    Mr. Herrmann.
    Mr. Herrmann. Thank you, Senator.
    As you mentioned earlier, the Report Card for America's 
Infrastructure gave our nation's dams a grade of D. That was a 
2009 Report Card. We have another one coming out in 2013, which 
we will take a look at the grade at that point.
    Senator Whitehouse. Are you expecting much improvement?
    Mr. Herrmann. We are looking at the numbers right now, 
coming up with it. I am not saying one way or the other at this 
point.
    Senator Whitehouse. OK.
    Mr. Herrmann. We are going to keep a lid on it.
    One thing that is interesting is that if we looked at the 
cost to rehabilitate just the most critical dams, that would be 
$16 billion. If we looked at the cost to rehabilitate all the 
dams, that would be $51 billion. It is a large number. It is 
something that we need to do to protect the public safety.
    As you mentioned the high hazard dams, those are ones that, 
if they fail, they could cause loss of life and property, and 
they are very critical. We really should be looking to repair 
those as soon as we can.
    Dams are very important, as you have brought up, and there 
are a number of areas where we can address that.
    Senator Whitehouse. Let me ask one additional question in 
the minute and a half that I have remaining, and that is: there 
is an old New England expression that a stitch in time saves 
nine. That infrastructure repair, if it is done promptly, can 
be more cost effective than if the infrastructure is allowed to 
further degrade and more complex and costly repairs are 
acquired, or as Senator Vitter saw in his State, God forbid, 
the infrastructure fails, and there are catastrophic 
consequences from that failure.
    It strikes me that, particularly when we are in a very low 
interest environment, the mathematics of infrastructure 
investment would suggest investing now while the costs of the 
project are where they are now, rather than at the higher level 
that they will be later, and that the interest costs are not 
going to offset that the way it might in a 17 percent or 18 
percent interest rate environment, because interest rates are 
now so low.
    Does anybody have any comment on the fiscal merit of moving 
on infrastructure now in this low interest environment?
    Mr. Herrmann. The investment for maintenance for these 
early works, one of our State agencies has put together a 
statistic that for every dollar you spend in maintenance you 
save $16 in repairs and rehabilitations later one. So clearly 
investing now in maintenance and keeping these things in good 
order definitely pays off in the future. It is an investment.
    Senator Whitehouse. So even if you are a fiscal 
conservative you should support this kind of investment?
    Mr. Herrmann. It pays back more than you are investing.
    Senator Whitehouse. Thank you.
    Senator Boxer. Thank you so much.
    We are going to have Senator Vitter for 10 minutes, and 
then we are going to turn to Senator Merkley for 10 minutes.
    Senator Vitter, you can do an opening statement and then 
questions, however you want to use your 10 minutes. All right? 
But we are going to go to Senator Vitter for 10 minutes first.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair, for this important 
hearing, and thanks to all of the witnesses.
    I certainly strongly, strongly support the priority of 
passing a good, robust WRDA bill as soon as possible. It is my 
absolute top priority on this Committee. It has been 5 years. 
That is way too long to get a solid, robust water resources 
bill. And I am frustrated we are taking it up at the very, very 
end of this Congress, but better late than never. We need to 
take it up and act as quickly as possible, including if it 
bleeds into next year as soon as possible in the new Congress.
    I appreciate all of the witnesses here and all of your 
testimony, but my frustration, Madam Chair, which I hope we can 
correct with a future hearing, is that the central player in 
all of this isn't here, the Corps of Engineers. My single 
biggest goal in the new WRDA goal is significant, important 
reform of the Corps of Engineers' bureaucracy and process.
    The fact of the matter is, the Corps of Engineers is a 
broken bureaucracy, and their process for projects--whether it 
is maritime, flood control, other vital infrastructure 
projects--is a broken process. That is for a whole host of 
reasons, some of which lay at their doorstep, some of which lay 
at ours in Congress or ours as a nation.
    My goal in saying this is not to point fingers; it is to 
focus on a real problem that I think needs to be at the center 
of this WRDA effort, because if we don't fix this broken 
process we will never begin to touch all of that infrastructure 
that needs upgrade and investment.
    I hope we have a hearing soon focused on the Corps, focused 
on the fact that so often projects are studied and re-studied 
and then re-studied for literally decades before a shovel hits 
the ground. And as you might expect, costs over that time go 
through the roof, so we are like a dog running after its tail, 
never, ever coming close to catching it.
    I hope we will talk about the RAMP Act and the fact that 
dedicated funds from the maritime industry that are supposed to 
be used for dredging are essentially stolen, half of it stolen 
every year for other unrelated programs in the Federal budget.
    And certainly in this process I hope we will talk about a 
proposal I have with Bill Nelson of Florida, a bipartisan 
proposal to push more project manager responsibilities for more 
of these projects down to the State and local level, where I am 
convinced the work can be led to the same standards but much 
quicker, much cheaper. That is essentially what we do on the 
highway side. We have a Federal Highway Administration, but 
they are not the project manager on every Federal highway 
project. In fact, they are basically the project manager on 
none of them, and we move that responsibility to the State and 
local level generally, with good results expediting and cost 
saving.
    We need to focus on this important need to fundamentally 
reform the Corps as a bureaucracy and the Corps process, or 
else I am afraid we can pass WRDA and one a few years down the 
line and a third one after that, and we will continue to be a 
dog running after its tail, never coming close to catching it.
    Thank you, Madam Chair.
    Senator Boxer. Thank you so much.
    Before I call on Senator Merkley, I wanted to tell you that 
we have been working with your staff in good faith for a long 
time now, and with Inhofe and Baucus, the Big Four, so I am a 
little frustrated, too, because we don't have specific, in 
writing, back from everybody.
    So the way I am going to approach it, and I think it is 
going to be good, is I will put together a draft, sort of my 
idea of what it should be, and then we will give that to your 
staff, to Senator Inhofe's staff, to Senator Baucus' staff to 
re-write it, cross it out, add, and then I would hope you could 
have that, since we are all frustrated. It has been way too 
long.
    I would say one of our major problems is the Congress--not 
me--voted to do away with earmarks. I think it is ridiculous. I 
think as a result of that you have Administration with all the 
power, whether it is this one or a Romney one or a Bush one. I 
believe it is our job. But sadly, we can't get it done because 
President Obama believes there should be no earmarks, agrees 
with the majority of the Congress. Not me.
    I say not me with feeling, because I personally--and I 
don't even know where Senator Vitter stands on it. It is not 
important for this conversation except I trust him and Senator 
Landrieu on what is happening on the ground in his State more 
than I trust any Administration. I trust myself, Senator 
Feinstein. I trust Senators and Members of Congress who know 
the ground on which they live to make these decisions. That is 
the reason it is frustrating for all of us.
    We all have different reasons to be frustrated, and I do 
look forward to working with you on reforming the Corps. I know 
the frustration you have had. I have done everything in my 
power to help you in Louisiana, and you have helped me with 
Sacramento and so on. So I just want you to know that I am 
excited to hear your enthusiasm for a bill.
    It is worth noting that the last bill passed out of this 
Committee was quite bipartisan, to the extent that it was 
vetoed by George W. Bush. What did we get? Seventy votes, I 
think, and an override plus. So it is very strongly supported.
    We have our challenges because there are no more earmarks, 
so we have to figure out a way to set in place standards for 
projects, and we are not going to have any earmarks because we 
can't because there will be a hold on the bill, it goes 
nowhere. So we won't have projects; we will have standards for 
projects, and that is what we are working on.
    So just to reiterate, because I think it is very important 
because, Senator Vitter, you have expressed the feelings of a 
lot of people around here when you say it has been far too long 
since we have had a WRDA bill. I couldn't agree with you more. 
It was far too long until we had a highway bill, and with your 
help and others we broke that, and we can do it again. 
Regardless of who heads this Committee, I am not worried about 
WRDA. I am worried about other things, but not worried about 
WRDA, so we will get a WRDA bill done.
    But just to expedite it, I will get my dream bill in place, 
give it to you and your staff, give it to Senator Inhofe and 
his staff, give it to Senator Baucus. Take a pencil and a pen, 
cross out, add, and let's get started. And then if that process 
goes well over this period of time when we are not here, as 
soon as we get back, if we can reach agreement during the 
break, and maybe we will talk during that time, sir, then we 
can bring the actual bill for markup in the lame duck, just to 
put our marker down and take it to the leadership on both 
sides.
    I now call on Senator Merkley. Sorry I went on so long, 
Senator. Go ahead. You have 10 minutes.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you very much, Madam Chair. And 
thank you all for being here. I think this hearing is very 
important to create some momentum.
    I hold a lot of town halls. I think it is now 144 since I 
was elected. At every town hall I start with a half-hour pre-
meeting with the mayors and city commissioners and State 
legislators and county commissioners, and it is very hard to 
get through any one of those gatherings without a number of key 
water projects being raised, water projects of the type that 
would be funded through the Water Resources Development Act or 
WRDA bill: waste treatment, bank and wetland restoration, 
dredging for channels, navigation channels, dredging for 
turning basins, levee repair, levee recertification, dam 
repair, and so on and so forth.
    So I appreciate the testimony you have brought forward to 
help focus attention on this vital infrastructure; not only 
this is a great time to be building infrastructure in America 
when the construction industry is flat on its back and interest 
rates are low.
    So I know that projects may not be identified as in the 
past. Certainly I will be advocating for whatever pools of 
grant or financing exist for the projects in Oregon. I have a 
long list here of projects that I have talked with Oregonians 
about, often essential to the success of our communities, both 
urban and rural.
    I know you all hear this type of report from virtually 
every Senator, but probably the reason that everyone up on this 
panel comes from a coastal State is it is a particularly 
powerful issue if you come from a State where the economy is 
dependent upon port access, ocean access, as our States are.
    I wanted to connect with you all in terms of one key piece 
of this puzzle, which is the harbor maintenance trust fund. It 
is my understanding that collections have far exceeded the 
funds that have been appropriated for harbor maintenance, 
resulting in water ``surplus.'' I put surplus in quotes because 
I believe a surplus has essentially been dedicated to national 
debt. But it means harbors are paying a very specific fee for a 
very specific purpose, for a purpose that is not adequately 
funded, and yet the funds are being diverted.
    I would just like to hear from you all whether you support 
this current policy of diverting funds, or you would like to 
see these funds utilized for the reason that they are collected 
in the first place.
    Janet.
    Ms. Kavinoky. Thank you, Senator.
    The U.S. Chamber of Commerce is a strong supporter of the 
RAMP Act. We absolutely believe that the funds that are 
deposited in to the harbor maintenance trust fund should be 
fully utilized every year for their intended purpose. There is 
no reason to let maintenance dredging needs go unaddressed 
while dollars that users are paying sit in a fund. In fact, 
Senator Vitter has been such a strong supporter of full 
utilization of the harbor maintenance trust fund. You have. 
Many others have. And the Chamber will continue to fight with 
the coalition to find a solution so that those funds can be 
used for their intended purpose.
    Senator Merkley. Would anyone else like to comment?
    Mr. Bridges.
    Mr. Bridges. Yes, thank you. The AAPA completely agrees 
with the Chamber in this matter. Currently, we believe there is 
a $6.4 billion balance in this trust fund, $1.5 billion being 
collected, and yet only $800 million is appropriated for this 
very worthwhile cause.
    So we fully and strongly are committed to full use of the 
harbor maintenance tax for the intended purposes.
    Senator Merkley. I would ask, Madam Chair, do you think 
this is a possibility as we debate a WRDA bill that we can 
possibly get the harbor maintenance trust fund dedicated to 
actually being used for----
    Senator Boxer. That would definitely be something that I 
want to do.
    Senator Merkley. Thank you. And thank you, Senator Vitter, 
for being a champion on this topic. I appreciate that. I go to 
community after community after community that says, What are 
we going to do about the siltation of our channel that we have 
been dedicating funds to, we have been contributing funds to 
this purpose, and the work is not getting done because it is 
sitting in a bank account somewhere. I just think that Senators 
who don't come from coastal States and understand how important 
those ports are, we need to collectively, from inside the 
building and from outside the building, educate them about 
that.
    I would like to turn to another issue. Janet, this may be 
something in your world, but one of the previous Water 
Resources Development Acts had a section designed to streamline 
the permitting process for both large and small entities, 
section 214, and I wanted to find out what are the results. I 
would open this up to anybody who would like to respond to it. 
But whether this authority for streamlining the permitting has 
been beneficial in trying to do work more effectively, more 
efficiently.
    Ms. Kavinoky. Senator, as a matter of fact the Chamber is a 
strong supporter of section 214. When we talk to our members, 
our partners like the Pacific Northwest Waterways Association, 
what we have found is it has helped make significant strides. 
That is something I think can be built upon in the next WRDA 
bill. As Senator Vitter and Senator Boxer talked about, the 
frustration, the need for Corps reform means that we can take 
the best elements of section 214 and find additional ways to 
streamline processes and increase those partnerships.
    I will be happy to address some of the more specific 
benefits for you in some follow up questions if you had those 
for the record.
    Senator Merkley. Great. Thank you.
    Would anybody else like to comment on this?
    Mr. Bridges. Yes, I would like to echo those sentiments and 
just magnify by saying that more than half of the Corps' 
districts are currently using this process. It has been very 
beneficial to the agencies that have been involved in that 
partnership. So we would encourage making section 214 a more 
permanent part of any future WRDA bills.
    Senator Merkley. Well, thank you. I just want to close by, 
again, appreciating your testimony and your help in bringing 
expertise to build momentum.
    Madam Chair, thank you for spearheading this effort.
    Senator Boxer. Thank you so much, Senator.
    We have been getting a very good, united response from all 
of you. I just have one more question I was going to ask Mr. 
Calhoun. I believe the next WRDA bill should look at the issues 
addressing the inland waterways, and this is particularly 
interesting to Senator Inhofe. He is very concerned about this. 
Many recognize we need to ensure the system is functioning as 
efficiently as possible, and I plan to work with my colleagues 
to evaluate recommendations for improvement of the system. How 
much longer do you think the existing system can continue to 
operate before we face significant impacts on its ability to 
reliably move goods?
    Mr. Calhoun. No longer at all. We are facing issues today 
on the riverways. Over the weekend, this happened to be an 
accident, but at lock and dam 27, that lock has been shut down, 
reopened at midnight last night, and created economic harm of 
$2.5 million to $3 million a day due to being shut down. So 
these closures, whether they are scheduled or unscheduled due 
to maritime accidents or due to just deteriorating of the 
infrastructure, continue to create problems for navigation, and 
it is adding cost to the system. It is still operating, but at 
a much higher cost. And as the cost goes higher, we become less 
competitive in world markets.
    I can't predict when we are going to see another lock wall 
collapse and fall into the river. I am not an engineer. We are 
very reliant upon the U.S. Army Corps of Engineers to tell us 
what needs to be done and what the priorities are.
    I was part of the Inland Waterways User Board when we 
addressed the capital development plan, and we went through and 
we tried to prioritize the projects and identify which ones 
were in the worst shape; we tried to identify which ones 
created the most economic benefit for the nation. It is very, 
very clear that we need to do something, and we need to do 
something now.
    Senator Boxer. Does anyone else want to add to that issue 
about your concern about the ability to operate without moving 
forward with a robust bill?
    Ms. Kavinoky. Certainly, as I pointed out in my oral 
statement, there are many areas of the economy that are 
affected currently. Look at the aggregate industry and how that 
could erode the benefits of the Federal highway bill. It is 
also important to point out that we talk a lot about 
containerized goods movement, but in particular in southeast 
Louisiana and southwest Texas, or I may have that wrong and it 
could be southwest Louisiana and southeast Texas. That might 
make more sense.
    The nation's crude oil industry and refining are strongly 
dependent on having adequate harbor depths and channels. We are 
talking about America's energy security. We are talking about 
the movements of the pulpit paper industry. America's steel 
industry is strongly dependent on waterways. And we hear again 
and again from our members that unreliability, the question of 
can we actually get it there on time, is fairly significant.
    So I think across the board we need to address these 
issues. We are seeing problems already today.
    Senator Boxer. Yes. Well, I thank you all. I was going to 
say something here, and I think I will about how we are going 
to proceed. I already said I am going to put together a bill, 
and I am going to get it to my colleagues on both sides for 
their comment, and then hopefully we will have a really good 
draft that is a bipartisan draft.
    At the point that we have a bill, I hope I can call on each 
and every one of you to help us, because we did that with the 
highway bill. It was very successful. So if you all get a call 
from me, I hope you will take it. Can I get that assurance? 
Excellent. I am not suggesting after I speak to you that you 
will be part of the effort, but I think you will be, because I 
do plan to have a bipartisan bill and a strong bill.
    I see Senator Boozman is here. I was just going to close 
down, but I am happy to stay for you, sir. Go right ahead. I 
will defer closing down. Use your time for whatever you want.
    Senator Boozman. Thank you, Madam Chair.
    Senator Boxer. Sure.
    Senator Boozman. That is very kind.
    Senator Boxer. Sure.
    Senator Boozman. This is so important. I really just wanted 
to thank you and Senator Inhofe for having this hearing and 
certain to express the fact that I am totally committed to 
going forward with the process.
    With that, what I would like to do is put my opening 
statement into the record.
    Senator Boxer. Absolutely.
    [The prepared statement of Senator Boozman was not received 
at time of print.]
    Senator Boozman. Again, I apologize for not being here. We 
are in a situation now where we have got probably 2 weeks' 
worth of work to do in about 2 and a half or 3 days.
    Senator Boxer. That is right.
    Senator Boozman. So it makes it very, very difficult. But I 
do appreciate you all being here, appreciate the testimony. I 
had an opportunity to look at some of that and will continue to 
look at it now that we have had the hearing.
    As I came in I was listening to Senator Boxer with the 
admonition that you might be hearing from her on the phone and 
things like that. I think the good thing in this particular 
situation, we hear a lot about the in-fighting of Republicans 
and Democrats, but I think we are all united on the Committee 
to get this done.
    Senator Boxer. We are.
    Senator Boozman. I appreciate your leadership, Senator 
Boxer.
    Senator Boxer. Thank you so much. I am so glad you came, 
and I just was going to tell your staff we are going to present 
a draft bill to everyone to take a pen to and add, subtract, 
comment, whatever you want to do, because we really need to 
have a hearing on the bill when we get back after the election, 
so that is the goal.
    I appreciated how you helped us on Highways. I appreciate 
how you are helping on this, because we all agree on this one. 
I mean, today I have sitting next to each other the Chamber of 
Commerce and the Union, just as an example. It is the same 
idea.
    Staff looked up when we overrode the veto of President Bush 
on the WRDA bill. We had, I think, 77 votes to override. It is 
clear that we need to get these things done.
    I really want to say thank you to all of you. You all were 
eloquent; you were clear. There is no doubt about what we need 
to do, and we need to do it quickly. I look forward to working 
with colleagues on both sides, and certainly working with all 
of you.
    I ask unanimous consent to enter letters and testimony to 
the record supporting action on the WRDA bill: the Associated 
General Contractors, Association of State Dam Safety Officials, 
National Waterways Conference, National Levee Issues Alliance, 
Association of State Floodplain Managers, The Nature 
Conservancy, the Water Resources Coalition.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. This reminds us of when we undertook the 
highway bill, so let's hope that our efforts, Senator Boozman, 
have the same effect: that we get this done as soon as 
possible.
    I look forward to working with everybody on it.
    Thank you so much. We stand adjourned.
    [Whereupon, at 11:20 a.m., the Committee was adjourned.]
    [Additional statements submitted for the record follow:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Madam Chair, Ranking Member Inhofe, thank you for having 
this hearing today to spotlight the benefits of investing in 
our nation's water resources.
    Today's hearing is about the job creation potential of 
investing in water infrastructure--ports, navigation, inland 
waterways, flood control, and environmental restoration.
    I'd like to start by talking a little bit about the context 
in which I view this legislation.
    I have a short recipe to continue to drive our recovery: 
tax reform, infrastructure, workforce, R&D, and trade.
    As I frequently pointed out during our efforts to pass an 
aviation bill and a transportation bill earlier this session, 
now is a critical time to be focused on infrastructure 
investment.
    However, it is also a particularly challenging time, as 
both Federal and State governments are facing daunting 
deficits.
    In this context, I believe that a WRDA bill can address 
three of the five points of my plan: we can invest in water 
infrastructure that boosts trade and helps us sell American 
products around the globe, and we can do so in a way that is 
fiscally responsible.
    In other words, we must continue to invest, but we must 
also to invest more wisely.
    There are some excellent examples of such projects in my 
State of Delaware.
    We are in the process of deepening the main channel in the 
Delaware River from 40 to 45 feet.
    This will help ports up and down the river, including the 
Port of Wilmington, to accommodate new, bigger ships that will 
begin arriving on the East Coast when the Panama Canal 
expansion is complete.
    A deeper channel means greater trade--that is a message I 
heard from businesses at the Port of Wilmington when I visited 
recently.
    Flood control projects along Delaware's Atlantic coast are 
another great example. These projects protect our coastal 
population and property from storm damage, which supports an 
entire tourism industry along the Delaware coast.
    Tourism is the fifth-largest private sector employer in 
Delaware representing about 15,000 full time jobs and $750 
million in annual revenue.
    So investment is critical. However, as important as 
projects like these are, we also need to be mindful of 
provisions that can make sure our investments are smart, 
strategic, and prioritized.
    That's why I was proud to support key reforms in our last 
WRDA bill, in 2007.
    For example, I was proud to lead on an amendment to require 
independent peer review of projects.
    In 2006 the Government Accountability Office had reported 
to Congress that recent Corps studies ``did not provide a 
reasonable basis for decisionmaking'' because of ``errors, 
mistakes, and miscalculations, and used invalid assumptions and 
outdated data.''
    Since then, this measure has brought greater transparency 
to the value of Corps' projects and the way that they are 
designed, built, and operated.
    But this provision, which enjoyed wide support in 2007, is 
slated to expire in 2014.
    Similar reforms from 2007 have resulted in a stronger and 
more cost effective program that better supports our economy, 
better protects our people, and is more mindful of taxpayers.
    It was a pleasure to work with this Committee to pass these 
provisions in 2007, and since then we've worked to ensure that 
they are well implemented and having the desired impact.
    As we move forward, let's not forget these reforms. Some of 
the best advice I ever received was, ``Find out what works, and 
do more of it.''
    Well, now is the time to examine how well they are working, 
and do more of it. And where they are not working, we must 
revisit and improve these policies.
    Shifting gears, I'd like to talk for a minute about a 
recent feature in my State's newspaper, the Delaware News 
Journal.
    The feature included more than a dozen articles over the 
course of an entire week that showed that the sea level along 
the Delaware coast is rising, and communities are facing major 
challenges as a result of this.
    Now, I have been convinced by the data that this is a 
result of global climate change.
    But whether it is due to climate change or not does not 
actually matter. Because it is a fact that in Delaware and 
other States, every year the water line is higher.
    We must take steps to ensure that the people and 
communities who depend on Corps projects can have confidence 
that those projects are built with rising seas in mind and are 
built to withstand the stresses of stronger and more frequent 
storms.
    This is not just an issue for coastal States. Record 
flooding in the Midwest and Northeast last summer and the 
drought that we are still suffering through across this country 
are both evidence that we need to be developing projects with a 
changing climate in mind.
    This Committee has tackled big issues several times this 
year, and I am confident that we can find agreement on a path 
forward on this legislation.
    If you doubt that for 1 minute, just look at how this 
Committee's leadership defied the naysayers to pass a 
transportation bill.
    So in closing, let me say that I am delighted that 
Chairwoman Boxer and Ranking Member Inhofe are using every last 
minute to try to address the important priorities of America.
    I want to commend our leaders at Environment and Public 
Works for putting such a high priority on moving this bill, and 
I hope that we can continue work on this important legislation 
when Congress returns after the election.
    Thank you.

                   Statement of Hon. Jeff Sessions, 
                 U.S. Senator from the State of Alabama

    Good morning. Thank you, Chairman Boxer and Ranking Member 
Inhofe, for holding today's hearing. We are almost 5 years 
removed from the last time Congress passed a Water Resources 
Development Act, and today America's program for maintaining 
and modernizing our ports, waterways, locks, dams, and levees 
is in need of attention. For that reason, I applaud you both 
for dedicating yourselves and your Committee staff to this 
important issue. In my opening remarks this morning, I would 
like to share my thoughts about priorities that I think are 
important for this Committee to consider when crafting the next 
WRDA bill.
    First, we need to redouble our efforts to accomplish 
important infrastructure improvements at the least possible 
cost to the taxpayer. Even during periods of tight budgets, 
maintaining and improving our infrastructure is a critical 
function of the Federal Government and can actually save 
taxpayer dollars in the long run. My State knows first-hand the 
value of America's water resources infrastructure. Alabama is 
home to over 1,270 miles of navigable waterways (ranked 6th 
nationally in terms of total inland waterway mileage), \1\ and 
the Army Corps of Engineers operates more than a dozen locks in 
Alabama that facilitate commercial and recreational boat 
traffic.
---------------------------------------------------------------------------
    \1\ U.S. Department of Transportation, State Transportation 
Statistics: 2011, available at http://www.bts.gov/publications/
state_transportation_statistics/state_transportation_statistics_2011/
index.html.
---------------------------------------------------------------------------
    We also have one of the nation's largest full service 
seaports, the Port of Mobile, which provides a waterborne 
transportation link to more than 20 States and markets around 
the world. In June of this year the Alabama State Port 
Authority welcomed the first Post-Panamax sized container ship 
to the Port of Mobile--the first of many large international 
container ships that will be frequenting Mobile in the years 
ahead. The Alabama State Port Authority and its partners have 
invested more than $340 million in recent years in facility 
improvements and modern technology to accommodate the increased 
demand for the port that will result from opportunities such as 
the expansion of the Panama Canal.
    Homegrown economic development projects also demonstrate 
the importance of our ports and inland waterways to the 
nation's economy. I recently visited a coal mining operation in 
Alabama owned by Walter Energy, which is a leading coal 
producer headquartered in Hoover, Alabama. Walter Energy 
employs approximately 4,400 employees and contractors and has 
operations in the United States, Canada, and the United 
Kingdom. In May of this year Walter Energy announced plans for 
a 6-year, $1.2 billion economic development project in Alabama 
referred to as the ``Blue Creek Energy Project.'' This project 
will involve new coal mines (the largest of which will be 
located in Tuscaloosa County, Alabama), river port operations 
(including a barge loading terminal in Walker County, Alabama, 
on the Black Warrior River), a new coal loading terminal at the 
Port of Mobile, and other investments throughout the State. The 
Blue Creek Energy Project is expected to begin producing up to 
4 million tons of coal for export starting in 2018 with 
employment exceeding 500 workers. This important project 
provides an excellent example of the critical role that our 
nation's ports and inland waterways can play in the development 
of American energy resources, job creation, and economic 
development.
    Indeed, proper investment in our nation's water resources 
infrastructure is critical to the nation's economy, 
environment, and national security. This is a national issue, 
not tied only to one particular State. Regrettably, President 
Obama's $840 billion stimulus program in 2009, which was sold 
on the idea of infrastructure investment, spent less than 4 
percent on infrastructure projects (and a small sliver of that 
was spent on water resources infrastructure). I would urge the 
Committee to give serious consideration to all reasonable 
proposals that will facilitate modernization of our nation's 
water resources infrastructure in a timely, cost effective, and 
equitable manner.
    Second, I would urge the Committee to focus on much needed 
reforms to the Army Corps Civil Works program that will ensure 
that the nation obtains the maximum return possible on its 
water resources. At this time, I would like to submit for the 
record comments provided to my office by the Coalition of 
Alabama Waterways along with an editorial published last year 
by an Alabama member of the Inland Waterways Users Board 
regarding needed reforms to the nation's program for 
maintaining and modernizing the inland waterway system. This 
letter and the editorial raise important concerns, and I would 
ask that these concerns be reviewed and considered by the 
Committee.
    Likewise, I understand that Representative Ed Whitfield 
recently introduced a bill, The WAVE4 Act, which has been 
endorsed by the national waterway associations and is 
cosponsored by dozens of Members of Congress, including 
Representatives Bonner, Sewell, Rogers, Bachus, and Aderholt of 
Alabama. I am informed that this proposal recognizes that 
commercial users of the inland river system are willing to 
accept an increase in the inland waterways fuel charge if that 
increase is combined with other important reforms to the Corps 
Civil Works program. I look forward to learning more about this 
proposal.
    Third, I would also urge the Committee to give close 
consideration to the condition of our nation's flood control 
projects, including the safety of dams and levees in the United 
States. The Committee should also evaluate ways to provide 
assistance, in a cost effective manner, for State level water 
supply infrastructure needs.
    Fourth, I am also concerned that the Army Corps is 
increasingly exceeding the limits of its discretion to 
reprioritize water project purposes without the involvement of 
Congress. I would urge the Committee to ensure that the next 
WRDA bill contains provisions establishing specific limits to 
ensure that the Army Corps does not make material changes to 
the uses for specific purposes at water resources projects 
without authorization from Congress.
    Fifth, I would urge the Committee to consider ways to 
ensure that the Inland Waterways User Board--the Federal 
advisory committee established by Congress in 1986 to advise 
the Congress and the Army Corps on inland waterways issues--has 
a full complement of members in order to conduct the activities 
entrusted to the board by Congress. I understand that there was 
a delay in the Corps' acting upon several recent nominations to 
the board, one of which involved a nominee from Alabama, and 
that the board, for a time, lacked a quorum of members 
necessary to conduct business. Consideration should be given to 
finding ways to ensure that this scenario is not repeated. The 
Committee should also closely review and scrutinize the Army 
Corps' recent proposals to alter the organization and 
composition of the Users Board.
    Sixth, I am concerned by the Administration's failure to 
properly implement certain directives of the Water Resources 
Development Act of 2007. For example, section 2031 of WRDA 2007 
directed the Secretary of the Army to update the 1983 
``Economic and Environmental Principles and Guidelines for 
Water and Related Land Resources Implementation Studies.'' The 
Corps was directed to make these revisions within 2 years and 
to provide Congress with an ``explanation of the intent of each 
revision, how each revision is consistent with [section 2031], 
and the probable impact of each revision on water resources 
projects . . . '' However, the current Administration removed 
this effort from the control of the Corps and handed it to the 
White House Council on Environmental Quality, which initiated a 
much broader effort to completely rewrite the principles and 
guidelines in a manner inconsistent with the clear direction of 
Congress in WRDA 2007. I would urge the Committee to review 
this and other situations where the Administration and/or the 
Corps has failed to follow the directions of the Congress as 
embodied in prior WRDA bills. In addition, I would urge the 
Committee to find ways to streamline the environmental review 
process for water resources projects to ensure that projects 
are reviewed and approved under reasonable timeframes, and that 
appropriate exclusions are provided where warranted.
    Seventh, the Committee should also consider the impact of 
recent Corps initiatives to alter operations at certain lower 
use locks in a manner that will adversely impact recreational 
and commercial navigation. On September 17, 2012, I sent a 
letter--joined by other members of the Alabama congressional 
delegation--to the Army Corps expressing significant concerns 
with their decision to implement operational changes at several 
Corps locks in Alabama. It is my understanding that the Corps 
intends to drastically reduce or no longer perform lockages for 
recreational watercraft on certain waterways, including the 
Alabama and Chattahoochee Rivers, and that the Corps has made 
other lock operation changes impacting both commercial and 
recreational vessels on these and other rivers in our State. We 
have been informed that the Corps intends to begin implementing 
this new initiative as early as October 7, 2012. This decision 
appears to have been made without adequate public notice, 
public hearings, or an opportunity for the affected 
stakeholders to submit comments for the Corps' consideration. 
While I understand that the Corps is acting as part of a 
national initiative to prioritize the use of available funds, 
it is troubling that the Corps seems to be acting unilaterally, 
without the substantial involvement of Congress or key 
stakeholders, in a manner that will prevent recreational users 
in Alabama from navigating many parts of our State's incredible 
network of waterways. This initiative will also impact the 
commercial use of these waterways and could, thereby, harm 
economic growth in the region. I would ask our Committee to 
review this Corps initiative as part of the WRDA process.
    Finally, I would like to conclude by urging caution on at 
least two budget related aspects of your important work. One, I 
will not be submitting any earmarked authorization requests at 
this time for at least a couple of reasons. I believe that 
abuses of the authorization and appropriations processes have 
contributed to our nation's massive debt problem. Until such 
time as our nation's fiscal situation improves and much needed 
reforms to the earmark process are enacted, I cannot support 
legislation containing earmarks that violate the letter and 
spirit of the current earmark moratorium. In May 2007 I voted 
in support of final passage of the WRDA bill in the Senate but 
was compelled to oppose the final conference report that spent 
$9 billion more than the Senate versions and contained billions 
of dollars in authorizations for earmarked projects that were 
added during the House-Senate conference. I remain hopeful that 
the same dynamic will not be repeated during this WRDA process. 
\2\
---------------------------------------------------------------------------
    \2\ I am a co-sponsor of the ``Implementation of the Simpson-Bowles 
Spending Reductions Act'' (S. 1936). This bipartisan bill would 
implement seven specific spending reforms recommended by the Simpson-
Bowles Commission including an end to the unwarranted use of earmarks.
---------------------------------------------------------------------------
    Beyond these earmark concerns, there is already a 
substantial backlog of authorized water resources projects, 
which strongly suggests that authorizing a slate of new 
projects would be imprudent at this time. A recent report by 
the Congressional Research Service (CRS) identified a backlog 
of more than 1,000 authorized activities and construction 
projects totaling more than $60 billion, \3\ an amount which 
exceeds by more than 10-fold the Army Corps Civil Works budget 
for fiscal year 2012. As importantly, it is imperative that the 
next WRDA bill comply fully with the Congressional Budget Act 
of 1974 (Pub. L. 93-344) and the Budget Control Act of 2011 
(Pub. L. 112-25). As the Ranking Member of the Senate Budget 
Committee, my staff and I will be reviewing any budget related 
considerations very closely.
---------------------------------------------------------------------------
    \3\ CRS, Army Corps of Engineers Water Resource Projects: 
Authorization and Appropriations, at 2 (Aug. 19, 2011).
---------------------------------------------------------------------------
    Again, thank you, Chairman Boxer and Senator Inhofe, for 
setting aside time this morning to discuss these very important 
matters. I look forward to hearing from our witnesses and to 
working with you both on a Water Resources Development Act in 
the months ahead.

    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
                            [all]
                            
                            
                            
                            
</pre></body></html>
